HHS/OIG, Audit -"Audit of the Medicaid Drug Rebate Program in Missouri,"(A-07-03-04011)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Audit of the Medicaid Drug Rebate Program in Missouri," (A-07-03-04011)
May 6, 2003
Complete
Text of Report is available in PDF format (1.09 MB). Copies can also
be obtained by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The audit objective was to evaluate whether the Missouri Department of Social
Services, Division of Medical Services (DMS) had established adequate accountability
and internal controls over the Medicaid drug rebate program. We determined
the DMS had adequate controls over the drug rebate program as required by federal
regulations except for the following areas: Form CMS 64.9R and the general
ledger reconciliation, dispute resolution, and interest accrual and collection.  These
issues occurred because the DMS did not develop or follow adequate policies
and procedures with regard to the drug rebate program.  Federal regulations
require effective control over and accountability for all funds, property and
other assets.  In addition, the rebate agreements between the Centers
for Medicare and Medicaid Services and the drug manufacturers require the payment
of interest on all disputed, late, and unpaid drug rebates, and the use of
the State hearing mechanism to resolve disputes. Our review showed that drug
rebate receivables were perpetually understated and it is likely that the DMS
did not receive all drug rebates and interest on disputed or late rebate payments
due from manufacturers.  In addition, without routine reconciliations,
the DMS did not have reasonable assurance that the rebate receivables were
effectively safeguarded.